                                  Closeout for M98 110038

    F
On . ovember 1998, we contacted a graduate student' who had expressed concern on a
pub ic electronic bulletin board about misrepresentations of academic credentials
(specifically possessing a Ph.D.) and the view that such misrepresentations are not
significant. In her posting to the bulletin board, she wanted to know how she could
"show/expose/correct this attitude." We contacted her to determine whether her concerns
related to specific incidents pertaining to NSF funding or proposals. She said her concerns
were "real," but told us she did not wish to pursue them. Although we have treated such
concerns as allegations of misconduct in science in the past, without further information, we
are unable to determine whether we have jurisdiction over her concerns, or how serious they
might be.

This inquiry is closed and no further action will be taken in this case.

Cc: Integrity, IG




                                     Page I of 1                           M98-38
